                                              OFFICE OF WORKERS'
                                              COMPENSATION PROGRAMS


Office of Inspector General—Office of Audit




                                              OWCP'S EFFORTS TO DETECT AND PREVENT
                                              FECA IMPROPER PAYMENTS HAVE NOT
                                              ADDRESSED KNOWN WEAKNESSES




                                                                Date Issued:   February 15, 2012
                                                             Report Number:     03-12-001-04-431
U.S. Department of Labor                                   February 2012
Office of Inspector General
                                                           OWCP'S EFFORTS TO DETECT AND PREVENT
Office of Audit
                                                           FECA IMPROPER PAYMENTS HAVE NOT
                                                           ADDRESSED KNOWN WEAKNESSES

BRIEFLY…                                                   WHAT OIG FOUND
Highlights of Report Number 03-12-001-04-431, to the
Acting Director for the Office of Workers’ Compensation    OWCP needs to plan how it will estimate improper
Programs (OWCP).                                           payments considering the enactment of IPERA. OWCP
                                                           did not estimate improper payments since it received
WHY READ THE REPORT                                        the OMB waiver; and the improper estimation method
                                                           OWCP used before it received the waiver may not be
The Federal Employees’ Compensation Act (FECA) is a        sufficient to meet IPERA requirements.
workers’ compensation law covering more than 3 million
federal and postal employees. The U.S. Department of       Some progress has been made in addressing improper
Labor (DOL), Office of Workers’ Compensation               payments and OWCP’s strategy has continued to
Programs (OWCP), is charged with administering the         evolve. OWCP completed the rollout of its FECA benefit
FECA program. In fiscal year (FY) 2010, federal            payment system, the Integrated Federal Employee
employees filed approximately 127,500 new injury           Compensation System and has sought legislative
claims and more than 19,000 claims for wage loss           authority to allow it access to SSA wage records.
compensation. FECA benefit expenditures totaled            However, OWCP’s efforts have not resulted in
nearly $2.8 billion for wage-loss compensation and         addressing all reported weaknesses.
medical treatment to more than 251,000 beneficiaries.
                                                           OWCP did not have performance measures for
In July 2010, the President signed into law the Improper   payment accuracy, which are common for other federal
Payments Elimination and Recovery Act (IPERA) which        disability programs. We also found that OWCP did not
amended the Improper Payments Information Act (IPIA)       always take timely action to terminate benefits when
of 2002 and requires federal agencies to review their      notified of FECA claimants’ death and had not designed
programs annually, identify programs that may be           effective procedures to ensure that benefit payments
susceptible to significant improper payments, perform      were reduced for FECA claimants who were collecting
testing of programs considered high risk, and develop      SSA retirement benefits. Also, OWCP had not yet
and implement corrective action plans for high-risk        implemented additional training for claims examiners on
programs. In FY 2009, DOL requested a waiver — in          preventing improper payments by ensuring payment
accordance with the provisions of the IPIA — from          accuracy. Unless these weaknesses are sufficiently
reporting FECA improper payments, by demonstrating         addressed, overpayments will go undetected such as
to OMB that its estimates were below the reportable        the $690,000 in payments we identified that were made
thresholds for FYs 2005 through 2008. OMB approved         to deceased FECA claimants in CY 2010.
the waiver request. Based on the waiver provisions,
DOL will be required to report on FECA again beginning     WHAT OIG RECOMMENDED
in FY 2012.
                                                           The OIG recommended that OWCP develop a process
WHY OIG CONDUCTED THE AUDIT                                for estimating FECA improper payments based on a
                                                           comprehensive risk assessment, and incorporate the
We conducted an audit to determine to what extent          process into the internal control structure used to
OWCP has addressed known weaknesses in detecting           manage the FECA program. We also recommended
and preventing improper payments for the FECA              that OWCP develop a program performance measure
program.                                                   on payment accuracy and address the weaknesses we
                                                           identified in the audit.
READ THE FULL REPORT
                                                           In response to the draft report, OWCP stated it will
To view the report, including the scope, methodology,      implement the recently enacted IPERA requirements.
and full agency response, go to:                           OWCP did not agree with the recommendation to
http://www.oig.dol.gov/public/reports/oa/2012/03-12-       develop a program performance measure on payment
001-04-431.pdf.                                            accuracy.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                        FECA Improper Payments
                                      Report No. 03-12-001-04-431
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 2


Objective — Has OWCP effectively addressed known weaknesses in detecting 

            and preventing improper payments in the FECA program? ................ 4

         Although OWCP made progress to detect and prevent improper payments 

         it has not addressed all known weaknesses......................................................... 4


         Finding 1 — OWCP did not yet determine an improper payment estimation 

                    method that meets the requirements of IPERA................................. 5

         Finding 2 — OWCP did not have plans to use program performance 

                    measures to improve FECA payment accuracy. ............................... 8

         Finding 3 — OWCP did not always take timely action to terminate benefits 

                    when notified of claimants' death. ..................................................... 9

         Finding 4 — OWCP did not have sufficient control procedures to ensure 

                    that benefit payments are reduced for FECA claimants who 

                    are collecting SSA retirement benefits. ........................................... 12

         Finding 5 — OWCP's enhancements to its training curriculums did not 

                    include improper payments............................................................. 13


Recommendations ...................................................................................................... 14


Appendices
         Appendix A Background ..................................................................................... 19

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 23

         Appendix C Acronyms and Abbreviations .......................................................... 27

         Appendix D OWCP Response to Draft Report ................................................... 29

         Appendix E Acknowledgements ......................................................................... 33





                                                                                              FECA Improper Payments
                                                                                            Report No. 03-12-001-04-431
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                        FECA Improper Payments
                                      Report No. 03-12-001-04-431
                                           U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210


February 15, 2012


                        Assistant Inspector General’s Report

Gary A Steinberg
Acting Director
Office of Workers’ Compensation Programs
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210


The Federal Employees’ Compensation Act (FECA) is a workers’ compensation law
covering more than 3 million federal and postal employees. It authorizes medical
benefits, income replacement, and certain supportive services to employees with
work-related injuries or, in the case of deaths, survivor benefits to family members. The
U.S. Department of Labor (DOL), Office of Workers’ Compensation Programs (OWCP),
is charged with administering the FECA program. OWCP is responsible for making
eligibility determinations of claims. Benefits are paid from the Employees’
Compensation Fund, which is principally funded through charge backs to the federal
agencies that employ the injured worker. Therefore, the FECA program affects the
budgets of all federal agencies. In fiscal year (FY) 2010, federal employees filed
approximately 127,500 new injury claims and more than 19,000 claims for wage-loss
compensation. FECA benefit expenditures totaled nearly $2.8 billion for wage-loss
compensation and medical treatment to more than 251,000 beneficiaries.

In July 2010, the President signed into law the Improper Payments Elimination and
Recovery Act (IPERA). IPERA amended the Improper Payments Information Act (IPIA)
of 2002. IPERA requires federal agencies to review their programs and activities
annually, identify programs that may be susceptible to significant improper payments,
perform testing of programs considered high risk, and develop and implement corrective
action plans for high-risk programs. OMB Circular A-123 provides guidance to federal
agencies on implementing IPIA and IPERA.

In February 2008, the Government Accountability Office (GAO) reported that OWCP
had not established an effective strategy for managing improper payments in the FECA
program. GAO concluded that OWCP did not sufficiently emphasize preventing,
detecting, and recovering improper payments and that none of the performance goals
for the program addressed improper payments. Furthermore, GAO believed OWCP did
not collect the information it needed to accurately assess the FECA program’s risk of
improper payments, such as information on their magnitude and causes. Without such
data, OWCP could not focus on the program’s most vulnerable areas. These concerns
have been included in OIG’s annual Management Challenges report for several years.

                                                                         FECA Improper Payments
                                             1                         Report No. 03-12-001-04-431
                                          U.S. Department of Labor – Office of Inspector General


GAO recommended OWCP should revise its program performance measures to ensure
increased emphasis on payment accuracy, adequate internal controls, and
overpayment recoveries. Additionally, GAO recommended that OWCP collect more
detailed information on improper payments, such as the causes of under and
overpayments, and use these data to better identify improper payment risks and to
address areas of high risk. GAO also recommended that OWCP take steps to reduce
common causes of improper payments by requiring agencies to report to OWCP more
timely when a FECA claimant returns to work, ensuring that its data match with SSA’s
death records is conducted regularly and consistently, taking steps to ensure that wage-
loss compensation payments for claimants covered by the federal retirement system are
appropriately reduced by the amount of their SSA benefits attributable to their federal
service, seeking legal authority to enter into a data-matching agreement with the U.S.
Department of Health and Human Services (HHS) to identify FECA claimants who have
wage earnings reported in the National Directory of New Hires (NDNH) and determining
what additional training claims examiners may need to improve payment accuracy.

In FY 2009, DOL requested a waiver — in accordance with the provisions of the IPIA —
from reporting FECA improper payments, by demonstrating to OMB that its estimates
were below the reportable thresholds for FYs 2005 through 2008. OMB approved the
waiver request. Based on the waiver provisions, DOL will be required to report on FECA
again beginning in FY 2012.

We conducted an audit to determine to what extent OWCP has addressed known
weaknesses reported by GAO in 2008 in detecting and preventing improper payments
for the FECA program. Specifically, we considered OWCP’s overall strategies for
detecting and preventing improper payments, OWCP’s processes for detecting and
managing improper payments, such as terminating deceased claimants’ benefits,
identifying claimants’ unreported income and Social Security Administration (SSA)
retirement benefits, processing employing agencies reporting of FECA claimants who
return to work, and training claims examiners on preventing improper payments. We
tested OWCP’s actions to timely terminate benefits for deceased claimants. The audit
covered OWCP’s internal controls related to the areas reported in the 2008 GAO report
that were in place and corrective actions taken as of June 2011.


RESULTS IN BRIEF

OWCP needs to plan how it will estimate improper payments considering the enactment
of IPERA. OWCP did not estimate improper payments since it received the OMB
waiver; and the improper payments estimation method OWCP used before it received
the waiver may not be sufficient to meet IPERA requirements. Specifically, the improper
payment estimates reported in FYs 2005 to 2008 fluctuated widely, from $3.3 million in
FY 2005 down to $722,000 in FY 2006, and then up to $2.6 million in FY 2007, and
down again to $500,000 in FY 2008. These estimates appear to be low in comparison to
the fraud and abuse found by OIG investigations. For example, in FY 2008, DOL OIG
investigations alone identified more than $6 million in restitution for FECA compensation


                                                                     FECA Improper Payments
                                            2                      Report No. 03-12-001-04-431
                                            U.S. Department of Labor – Office of Inspector General


and medical fraud. Additionally, in FY 2010, our audit work on OWCP’s FECA match
with SSA death records identified more than $690,000 in improper payments; and OIG
investigations identified more than $1.3 million in restitution for FECA fraud. As a result,
OWCP may need to explore other methods to ensure its estimates provide sufficient
information to enable the agency to make informed judgments on the magnitude of
improper payments in the FECA program.

To date, some progress has been made in addressing improper payments and OWCP’s
strategy has continued to evolve. For example, OWCP completed the rollout of its
FECA benefit payment system, the Integrated Federal Employee Compensation System
(iFECS). This system is designed to track due dates of medical evaluations, revalidate
eligibility for continued benefits, use data sharing to help prevent improper payments,
boost efficiency, and improve customer satisfaction. OWCP implemented an electronic
forms process so employing agencies can report a FECA claimant’s return to work more
timely and has sought legislative authority to allow it access to SSA wage records to
identify unreported wages.

However, OWCP’s efforts have not resulted in addressing all reported weaknesses.
OWCP did not have performance measures for payment accuracy, which are common
for other federal disability programs. OWCP believed payment accuracy should not rise
to the level of an operating plan goal but should continue to be monitored and the
results addressed through program initiatives, system enhancements, accountability
reviews, and measurement of claims examiners compliance with FECA requirements.
However, without such program performance measures, we believe OWCP is unable to
demonstrate its progress in improving payment accuracy.

We also found that OWCP did not always take timely action to terminate benefits when
notified of FECA claimants’ death. Additionally, OWCP had not designed effective
procedures to ensure that benefit payments were reduced for FECA claimants who
were collecting SSA retirement benefits, and OWCP had not yet implemented additional
training for claims examiners on preventing improper payments by ensuring payment
accuracy. We believe these conditions can be attributed to OWCP not sufficiently
emphasizing the importance of detecting and preventing improper payments. As a
result, overpayments will go undetected such as the $690,000 in payments we identified
that were made to deceased FECA claimants in calendar year (CY) 2010.

We recommended the OWCP Acting Director develop a process for estimating FECA
improper payments based on a comprehensive risk assessment, and incorporate the
process into the internal control structure used to manage the FECA program. We also
recommended that OWCP develop a program performance measure on payment
accuracy; improve procedures to ensure timely termination of benefits for all cases
when notification of a claimant’s death is received and verified; develop effective
procedures to ensure that claimants who receive SSA retirement benefits are identified
and their FECA payments are adjusted accordingly; and implement a requirement for
training all claims examiners on improper payments.



                                                                       FECA Improper Payments
                                             3                       Report No. 03-12-001-04-431
                                                         U.S. Department of Labor – Office of Inspector General


OWCP stated it will implement the requirements of the recently enacted IPERA and will
explore opportunities to incorporate additional payment reviews OIG recommended into
its existing Accountability Review process. However, OWCP believed it has an effective
internal control structure to manage FECA payment accuracy, and did not agree with
establishing a related performance measure. OWCP stated that training for claims
examiners on proper payments has been implemented and a training module on
improper payments was released in January 2012. The module, available to the claims
staff in the eLearning training environment, is considered procedural reference material
and is not intended as annual "refresher" training. Review of the training materials is
mandatory for all incoming claims staff, but not for the existing journey-level claims
examiners.

The OWCP Acting Director’s response is included in its entirety as Appendix D.

We continue to believe that OWCP needs to develop a performance measure on
payment accuracy to allow it to monitor the progress of reducing improper payments
and evaluate the effectiveness of its prevention efforts. Although OWCP stated it has an
effective internal control structure to manage FECA payment accuracy, it cannot
demonstrate its effectiveness because it does not have a reliable estimate of improper
payments. We also believe that training on improper payments should be a requirement
of all claims examiners.


RESULTS AND FINDINGS

Objective — Has OWCP effectively addressed known weaknesses in detecting
            and preventing improper payments in the FECA program?

         Although OWCP made progress to detect and prevent improper payments it has
         not addressed all known weaknesses.

OWCP has made some progress in addressing improper payments in the FECA
program and OWCP’s strategy has continued to evolve. For example, OWCP
completed the rollout of its FECA benefit payment system, iFECS. 1 OWCP determined
it was not feasible to pursue a data-matching agreement with HHS to identify FECA
claimants who have wage earnings reported in the NDNH, but instead has sought
legislative authority to allow it access to SSA wage records. OWCP also implemented
an electronic forms process so employing agencies can report a FECA claimant’s return
to work more timely. However, OWCP did not know the magnitude of FECA improper
payments, nor did it have program performance measures for payment accuracy.
OWCP was not required to estimate the improper payments for FECA since it received
the OMB waiver in 2009. OWCP reviewed the possibility of developing an operating
plan performance measure for payment accuracy, but determined that current
assessment tools were sufficient based on program history and the focus on improved

1
 iFECS is a system designed to track due dates of medical evaluations, revalidate eligibility for continued benefits,
use data sharing to help prevent improper payments, boost efficiency, and improve customer satisfaction.

                                                                                        FECA Improper Payments
                                                           4                          Report No. 03-12-001-04-431
                                          U.S. Department of Labor – Office of Inspector General


payment accuracy. However, we found such measures were used by SSA and the
Department of Veterans Affairs (DVA) for their disability programs. Additionally, OWCP
did not adequately address weaknesses found in its process for using SSA death
records and for ensuring benefit payments were reduced for FECA claimants who were
collecting SSA retirement benefits. Finally, OWCP did not implement additional training
for claims examiners regarding improper payments.

Finding 1 — OWCP did not yet determine an improper payment estimation
            method that meets the requirements of IPERA.

Since receiving an OMB waiver in FY 2009 exempting it from the reporting requirements
under IPIA, OWCP did not estimate the improper payments for FECA. At the time of our
audit, OWCP did not have a plan on how it will estimate improper payments under
IPERA requirements. The method OWCP used previous to the waiver is not sufficient
considering the changes made under provisions in IPERA regarding the requirements
for estimating improper payments. As a result, OWCP may not have sufficient
information to enable it to make informed judgments on the magnitude of improper
payments in the FECA program.

IPIA of 2002, Section 2(b), required federal agencies to estimate the annual amount of
improper payments. IPERA of 2010 amended Section 2(b) to specify that agencies
produce a statistically valid estimate — or an estimate that is otherwise appropriate
using a methodology approved by OMB — of the improper payments made by the
program. Both acts require the agencies to report the estimates in the accompanying
materials to the agency’s annual financial statements. OMB Circular A-123, Appendix C,
provides the guidance for agencies to follow in implementing both IPIA and IPERA.
Appendix C, issued in August 2006 and updated in March 2010, requires agencies to
develop a statistically valid estimate of improper payments. The goal is for statistical
estimates to be based on a sample size sufficient to yield an estimate with a 90 percent
confidence interval, plus or minus 2.5 percent. Agencies could alternatively use a 95
percent confidence interval of plus or minus 3 percentage points around the estimate of
the percentage of improper payments.

In FY 2009, DOL obtained a waiver from OMB for reporting FECA improper payment
information barring any significant changes to legislation or funding. The OMB waiver
provided that DOL will next be required to report on FECA in FY 2012. OWCP officials
told us they may to seek another waiver from OMB for FY 2012.

For FY 2008 — the last year DOL reported FECA improper payment estimates —
OWCP used a monetary-unit sampling approach to estimate improper payments for
both medical and compensation payments. Medical payment sampling was designed to
test for proper number of payments (duplicate payments), appropriate receipts,
consistency with regional allowances, payments made for appropriate procedures, and
eligibility at date of service. Compensation payment sampling was designed to test for
consistency with the identified injury, current medical evidence supporting continued
compensation payments, claimant eligibility, and calculations of compensation amounts.


                                                                     FECA Improper Payments
                                           5                       Report No. 03-12-001-04-431
                                          U.S. Department of Labor – Office of Inspector General


OWCP applied the methods above in testing of 264 items from the population of the
FECA compensation and medical payments made during the period July 1, 2007
through June 30, 2008. The Department’s annual Performance and Accountability
Reports (PAR) showed that OWCP’s improper payment estimates for each of the
reported fiscal years were below the threshold for a high-risk designation. Although the
estimates were below the threshold, DOL had to report on FECA in the PAR because
OMB Circular A-123 listed FECA as one of the programs being at a high risk of
improper payments because of the amount of outlays.

OWCP officials told us that they are in the early planning stage of developing a
methodology for estimating FECA improper payments for FY 2012, and that they may
be able to use the same methodology as in FY 2008. We concluded that the
methodology used previous to the waiver is not sufficient to estimate improper
payments under IPERA. Specifically, the improper payment estimates reported in FYs
2005 to 2008 fluctuated widely, from $3.3 million in FY 2005, down to $722,000 in FY
2006, then up to $2.6 million in FY 2007, and down again to $500,000 in FY 2008. The
estimated amounts appear low and do not cover all the areas susceptible to improper
payments. For example, in FY 2008, DOL estimated FECA overpayments to total
$500,000. However, DOL OIG investigations alone identified more than $6 million in
restitution for FECA fraud and abuse. Additionally, in FY 2010, our audit work on
OWCP’s FECA match with SSA death records found more than $690,000 in improper
payments; and DOL OIG investigations found more than $1.3 million in restitution for
FECA fraud. Other OIGs, such as the U.S. Postal Service, have FECA cases as well
that we did not quantify. Furthermore, OWCP’s previously used methodology did not
encompass all the risks associated with improper payments such as those identified in
GAO’s February 2008 audit — late or no notice of when claimants returned to work; late
or no notice of when claimants or their survivors died; unverified self-reported data on
wage earnings and other federal benefits; and inaccurate data from employing
agencies.

Our review of how other agencies responsible for administering federal compensation
programs reported improper payments found that they used a quality control process to
estimate their improper payment rates. SSA, which administers the Old-Age, Survivors,
and Disability Insurance (OASDI) program, used a process referred to as “stewardship
reviews.” These involved an examination of a sample of OASDI cases to determine
payment accuracy rates. For each sample case, the reviewer interviewed the
beneficiary or representative payee, made collateral contacts as needed, and
redeveloped all non-medical factors of eligibility as of the sampled month. SSA then
input the findings into a national database and used case error dollars to compute
accuracy rates for monthly payments. SSA reported that the stewardship review
findings provided the data necessary to meet IPIA reporting requirements, as well as
other reports to monitoring authorities. The Department of Veterans Affairs (DVA),
which administers the Compensation and Pension programs, used a process named
the Systematic Technical Accuracy Review (STAR). This was a quality assurance
review program for compensation and pension benefit claims processing that provided a
comprehensive review and analysis of disability compensation. The DVA stated that


                                                                     FECA Improper Payments
                                            6                      Report No. 03-12-001-04-431
                                           U.S. Department of Labor – Office of Inspector General


since the STAR review process for claims processing accuracy review included a
random sample of cases, the only additional review step required to meet IPIA was to
capture under and overpayment rates and calculate the dollar amount.

OWCP performs Accountability Reviews, which are similar to SSA’s stewardship
reviews and DVA’s STAR program. OWCP performs Accountability Reviews annually
covering all 12 District Offices, choosing elements to test and randomly sampling at
least 42 cases for each office and element. For FY 2010, we determined that the
Accountability Reviews covered 16 elements and randomly sampled a total of 6,613
cases. The following table lists the 16 elements and sample cases covered in the
Accountability Reviews for FY 2010.

   Table 1 - FY 2010 Accountability Review Elements and Sample Sizes
         Element                                                      Sample Size
    1    Initial Development                                                   494
    2    Initial Acceptances                                                   500
    3    Initial Denials                                                       487
    4    Controversions                                                        435
    5    Compensation Claim Development                                        481
    6    Initial Payments                                                      483
    7    QC Management - Claims Examiner Case Management                       477
    8    Third Party Identification                                            429
    9    Routine Correspondence                                                499
   10    Staff Nurse, Quality of Direction, Coding and Authorizations          473
   11    Vocational Rehab Closures                                             423
   12    Bill Processing Cash Receipts                                         504
   13    Compensation Cash Receipts                                            504
   14    Cash Receipts (Payment Over Cancellation)                              96
   15    Debt Management - Debt Monitoring
   16    iFECS User Role Access Verification                                   328
         Total Cases                                                         6,613

Currently, the Accountability Reviews do not calculate the amount of improper
payments. Depending on the element, an error will not necessarily result in an improper
payment.

We concluded that the Accountability Review process provides a good basis for
assessing payment errors and, with modifications, could provide a better statistically
valid estimate of improper payments than what was previously used.




                                                                      FECA Improper Payments
                                            7                       Report No. 03-12-001-04-431
                                          U.S. Department of Labor – Office of Inspector General


Finding 2 — OWCP did not have plans to use program performance measures to
            improve FECA payment accuracy.

OWCP does not have program performance measures that address payment accuracy
like other federal agencies that manage similar compensation programs. For various
reasons, OWCP did not believe the area of improper payments rose to the level of
needing a performance measure. OWCP believed payment accuracy should not rise to
the level of an operating plan goal, but should continue to be monitored and the results
addressed through program initiatives, system enhancements, accountability reviews,
and measurement of claims examiners’ compliance with FECA requirements. However,
without a program measure on payment accuracy OWCP does not have the ability to
measure its progress and demonstrate the effectiveness of its efforts in reducing
improper payments.

According to Section 2 of the Government Performance and Results Act of 1993
(GPRA), waste and inefficiency in federal programs undermine the confidence of the
American people in the government. Federal managers were seriously disadvantaged in
their efforts to improve program efficiency and effectiveness because of insufficient
articulation of program goals and inadequate information on program performance.
Therefore, the purpose of GPRA was to improve the confidence of the American people
in the capability of the federal government, by systematically holding federal agencies
accountable for achieving program results.

GPRA program performance measures for FECA covered lost production day rates, the
percent of injured federal workers that are reemployed, and the timely receipt of forms
for reporting injuries. However, one of the key aspects of the FECA program is to
ensure that accurate benefits are paid to claimants and OWCP has no performance
measures that address this.

GAO’s 2008 report recommended that OWCP consider revising its program
performance measures by developing a performance goal to ensure the FECA
program’s emphasis on quickly processing and paying FECA claims is balanced with
the need for payment accuracy. In OWCP’s February 2011 updated response to GAO’s
recommendation, it stated there are a wide variety of reasons improper payments are
generated, many outside the program’s control. With the wide range of causes and the
growing number of automated controls, OWCP believed the issue did not lend itself to
the level of an operating plan goal. Rather, it should continue to be monitored and the
results addressed through program initiatives, accountability reviews, and system
enhancements. OWCP explained that its review of the improper payment reporting
codes did not reveal any specific pattern for either under or overpayments. OWCP also
stated it has made major changes to the program’s internal quality review process,
allowing the program to look with more consistency at payment performance on a
program-wide basis. Additionally, OWCP stated it has updated the FECA Procedure
Manual guidance to claims examiners which addressed underpayment issues, and that
training on making accurate payments was available and training on improper payments



                                                                     FECA Improper Payments
                                           8                       Report No. 03-12-001-04-431
                                           U.S. Department of Labor – Office of Inspector General


was under development. OWCP stated a review of the results from FYs 2009 and 2010
indicated the program’s approach has been very successful.

OWCP analyzed the five most significant improper payment reporting codes for under
and overpayments. We reviewed OWCP’s analysis and concluded it was insufficient to
support the agency’s decision. The analysis stated that the claims examiners’ prevalent
use of “Other” as a reason code for overpayments (43 percent) made it difficult to
analyze the data. The analysis stated that a similar issue was found for underpayments
in that the most prevalently used code “Additional Compensation Due Same Period”
was frequently not an improper payment, but rather reflected intermittent payments
made with overlapping periods. OWCP’s analysis concluded that no single code rose to
the level of requiring a program performance goal, but stated that additional training was
needed for proper coding. OWCP concluded that with improved coding, a more targeted
focus on improper payments was under development. We concluded that OWCP needs
to determine the causes for the frequent use of the reason code “Other” and implement
corrective actions to calculate the dollar value of the under and overpayments.

Other federal agencies operating disability compensation programs demonstrated the
importance of providing correct benefit payments by developing payment accuracy
measures for their programs. We found that SSA’s Disability Insurance Program and
the DVA’s Disability Compensation program had performance measures for payment
accuracy. SSA stated the measure is determined by an annual review of sampled
individuals receiving disability payments. The DVA explained that monitoring accuracy
helps ensure it provides the correct level of benefits to the veterans.

We believe that implementing a program measure on payment accuracy will provide
OWCP the capability to demonstrate the progress made in reducing improper
payments.

Finding 3 — OWCP did not always take timely action to terminate benefits when
            notified of claimants' death.

Our review of the SSA results of matches of FECA claimant SSN to SSA death records
provided to OWCP during CY 2010 found OWCP did not always take timely action to
terminate benefits when notified of FECA claimants’ death through either family
members, a third party, or its matches with SSA death records. This occurred because
OWCP did not have control procedures to ensure the District Offices that were
responsible for terminating benefits took timely action upon receiving notice of a
claimant’s death. Furthermore, OWCP did not always provide the results of the matches
to the District Offices in a timely manner. Our review of a sample of claims identified 43
benefit payments, totaling $76,773 paid to deceased claimants that could have been
prevented. Additionally, benefit payments made to deceased claimants could adversely
affect the FECA program reputation.

GAO’s 2008 report focused on OWCP’s use of SSA death records in its FECA program.
Therefore, although the District Offices also received notification of claimants’ death by


                                                                      FECA Improper Payments
                                            9                       Report No. 03-12-001-04-431
                                            U.S. Department of Labor – Office of Inspector General


other means, our audit focused on OWCP’s use of SSA death records and its corrective
action efforts in response to GAO’s report. GAO had recommended that OWCP conduct
data matches with SSA death records regularly. According to its February 2011 update
to GAO, OWCP stated the SSA death match is being performed regularly to avoid
payments to deceased claimants.

We found that OWCP is conducting monthly matches of FECA claimants to the SSA
death records. However, OWCP needs to ensure that benefits are terminated in a timely
manner to prevent instances where payments continue after death as found in our audit.

The OWCP National Office officials informed us that they send e-mails to each District
Office Director containing the monthly SSA death match results for claimants in their
respective jurisdictions. However, OWCP did not have an overall procedure for District
Offices to follow subsequent to receiving the notification. Rather, the District Offices
were responsible for having procedures in place to terminate FECA benefits upon
notification of a claimant’s death. Our review of the SSA death match results found that
in most cases, the District Office was notified of a claimant’s death by a relative or a
third party such as the employing agency, before it received the SSA death match.
OWCP officials explained that the SSA death match results are supposed to act as a
“firewall” in cases where they were not notified of the claimant’s death by a relative or
third party. For benefit payments made after date of death, the claimant’s estate is
entitled to compensation up to and including the date of death and the remaining
amount is determined to be an overpayment. A delay in OWCP receiving notification of
a claimant’s death will result in an overpayment.

For CY 2010, the monthly matches showed 815 FECA claimants were matched to SSA
death records. Using all 815 SSA death matches, we ranked the matches by the level of
risk in which an improper payment could have occurred because of untimely action by
OWCP to stop benefits after the date of death.

 Table 2 – Auditor’s Risk Ranking and Number of Death Matches
                                                                      Number of
                                                                        Death
                         Condition                         Risk        Matches       Percent
 One or no benefit payment was made after the date of
                                                            Low 512                     63
 death.
 More than one benefit payment was made 60 days or
                                                         Moderate 271                   33
 less after the date of death.
 Multiple benefit payments were made and continued
                                                           High 32                       4
 more than 60 days after the date of death.
 Total 815                                                                             100

We selected 52 of the 815 matches for testing — all 32 high-risk matches, and a sample
of 10 moderate and 10 low-risk matches — and found overpayments occurred in 51 of
the matches. Specifically, for the 51 matches combined, 161 overpayments occurred
totaling $276,960. Of the 161 overpayments, OWCP could have prevented 43 totaling


                                                                       FECA Improper Payments
                                             10                      Report No. 03-12-001-04-431
                                                       U.S. Department of Labor – Office of Inspector General


$76,773 had it taken prompt action to terminate compensation when notified of the
claimant's death. 2

For the 32 high-risk matches, which consisted of 132 benefit payments totaling
$238,837, we found OWCP could have prevented 40 overpayments totaling $71,587.
These 40 overpayments were for 19 of the 32 high risk death matches. For 13 of the 32
high-risk matches, the SSA death match was the method by which OWCP learned of
the claimant’s death. For the remaining 19 matches, either a family member or third
party had already notified OWCP of the claimants’ death before OWCP received the
SSA death match. The overpayments occurred because OWCP did not take timely
action when they were notified of the claimants’ death. We found OWCP initiated
procedures to collect the overpayments. At the time or our field work there were two
claimants who continued to receive benefits because documentation from their
survivors made it appear the claimant was still living. We referred these 2 cases to
OIG’s Office of Labor Racketeering and Fraud Investigations for investigation. The
following are some examples.

    •	 A claimant died on September 9, 2010, and the OWCP District Office was
       notified through the death match, which it received December 28, 2010. OWCP
       should have initiated action no later than January 5, 2011, in order to prevent
       further overpayments. At the time of our review (April 2011), OWCP had not
       taken action to terminate benefit payments. As a result, OWCP made 4
       payments totaling $10,454 to a deceased claimant. Our review of the case file
       showed possible fraudulent documents from the claimant’s family after the date
       of death. We referred this case for investigation.

    •	 In another case, a claimant died on July 2, 2010, and the OWCP District Office
       was notified through the death match, which it received September 23, 2010. We
       determined that OWCP should have initiated action no later than October 13,
       2010, in order to prevent further overpayments. OWCP did not take action until
       March 2, 2011, to terminate benefit payments. As a result, OWCP made 5
       payments totaling $3,166 to a deceased claimant.

For the 10 low risk and 10 moderate risk matches, we found OWCP appropriately
established an overpayment for cases in which payments were made after the date of
death.

We found several problems in OWCP’s process for handling SSA death match reports
that caused untimely termination of benefits. First, OWCP did not provide the SSA
death match reports in a timely manner to the OWCP District Offices. Our analysis of
the monthly SSA death match reports for CY 2010 showed a wide variance in the
amount of time between when OWCP received the reports and when it sent them to the
District Offices. As shown in Table 3, 9 of the 12 reports took more than 5 days to be
sent to the District Offices, with 7 reports taking 20 days or longer.

2
 For the remaining 118 overpayments, totaling $100,187, the notice of death occurred too late in the month for
OWCP to avoid an overpayment.

                                                                                     FECA Improper Payments
                                                        11                         Report No. 03-12-001-04-431
                                           U.S. Department of Labor – Office of Inspector General




Table 3 - Number of Days Taken to Send SSA Report to OWCP District Offices
                       SSA      Date Sent to   Number of Days from SSA
                      Report       District    Report Date to Date Sent to
Month Matched          Date        Office             District Office
January 2010        02/03/2010    03/22/2010                47
February 2010       03/02/2010    03/22/2010                20
March 2010          04/07/2010    04/12/2010                 5
April 2010          05/19/2010    06/23/2010                35
May 2010            06/23/2010    06/24/2010                 1
June 2010           07/29/2010    09/02/2010                35
July 2010           09/01/2010    09/02/2010                 1
August 2010         09/16/2010    09/23/2010                 7
September 2010      10/01/2010    11/10/2010                40
October 2010        12/02/2010    12/28/2010                26
November 2010       12/10/2010    12/28/2010                18
December 2010       01/14/2011    02/11/2011                28

Secondly, the OWCP National Office did not have a process to monitor the District
Offices management of the death match results. Specifically, OWCP did not identify
death match results that would indicate potential multiple overpayments or ensure that
the District Offices took timely action to confirm the claimant’s death and terminate the
benefits.

Finding 4 — OWCP did not have sufficient control procedures to ensure that
            benefit payments are reduced for FECA claimants who are collecting
            SSA retirement benefits.

OWCP did not have sufficient procedures to ensure it reduced benefit payments for
FECA claimants who had reached retirement age and were collecting SSA retirement
benefits (Social Security). OWCP relied primarily on FECA claimants to self-report if
they were collecting Social Security. As a result of not actively seeking out this
information, OWCP is at risk of incurring overpayments because it does not know to
reduce claimants’ FECA benefits.

Section 8116(d)(2) of FECA requires that a claimant's continuing compensation benefits
be reduced if he or she begins receiving Social Security based upon his or her age and
federal service.

GAO’s 2008 report recommended that OWCP take steps to ensure that wage-loss
compensation payments for claimants covered by the federal retirement system were
appropriately reduced by the amount of their SSA benefits that were attributable to their
federal service. According to its February 2011 update to GAO, OWCP stated that in
September 2009, it implemented a monthly batch process that automatically generates
a notice to claimants as they approach their 65th birthday. In order to reduce potential

                                                                      FECA Improper Payments
                                            12                      Report No. 03-12-001-04-431
                                          U.S. Department of Labor – Office of Inspector General


SSA dual benefit overpayments, the notice reminds claimants of their responsibility to
report any retirement income they may be receiving so that OWCP can make the
necessary adjustments to compensation. OWCP also annually sends form CA 1032 to
claimants, which includes a request for them to report if they received retirement from
SSA or the Office of Personnel Management. The OWCP reviews the responses for
consideration of a reduction in compensation, and is supposed to suspend
compensation payments if the claimant fails to return the CA 1032.

We observed that the OWCP District Office generated a monthly SSA Retirement List
which showed all the claimants who were approaching retirement age. The District
Office then identified claimants who would be eligible for Social Security under the
Federal Employees Retirement System (FERS). The District Office mailed a letter to
these claimants notifying them of the requirement to inform OWCP if they were currently
or in the future receiving Social Security and that failure to report receipt of such
benefits could result in an overpayment of FECA compensation subject to recovery.

We concluded that this process is not adequately designed because it is only sent once
to the claimant when they are approaching retirement age and the process relies on the
claimant to self report receipt of Social Security on the CA 1032. A more effective
process would be to perform, on a regular basis, data matches with SSA of FECA
claimants who are eligible for Social Security under FERS to determine if they are
collecting dual benefits. However, this would require legislative authority.

Finding 5 — OWCP's enhancements to its training curriculums did not include
            improper payments.

GAO recommended OWCP determine what additional training claims examiners may
need to improve payment accuracy. OWCP had not yet implemented additional training
for claims examiners to detect and prevent improper payments and ensure payment
accuracy. OWCP completed the development of the training on payment accuracy and
officials told us they were in the process of developing training on improper payments.
The proposed course content was not available for our review prior to completing our
audit fieldwork. Training specifically focused on improper payments would provide
OWCP with additional assurance that its claims examiners are effectively managing
improper payments.

According to its February 2011 update to GAO, OWCP stated it completed a revision of
the FECA procedure manual regarding payments which provided better reference
materials for claims examiners. OWCP officials told us they prepared and implemented
an on-line training curriculum that was available to all claims examiners to improve
claims processing performance and payment accuracy.

We found the training OWCP cited was available on the OWCP intranet. However, no
curriculum specific to improper payments was included in the training. OWCP did have
a “coming soon” module entitled Overpayments and Adjustment, but officials could not
provide details on the course material or when it would be available. We also noted that


                                                                     FECA Improper Payments
                                           13                      Report No. 03-12-001-04-431
                                         U.S. Department of Labor – Office of Inspector General


all claims examiners could take the training but it was not mandatory, and OWCP did
not keep a record of who completed the training.

The GAO Standards for Internal Control in the Federal Government, on Control
Environment, emphasizes the need for management to ensure all personnel maintain a
sufficient level of competence to perform assigned duties and understand the
importance of good internal controls.

Mandatory training to detect improper payments can assist in OWCP’s efforts to
improve payment accuracy.

Overall, we believe that the conditions described in Findings 2 through 5 can be
attributed to OWCP not sufficiently emphasizing the importance of detecting and
preventing improper payments. As a result, overpayments will go undetected such as
the $690,000 in payments we identified that were made to deceased FECA claimants in
CY 2010.


RECOMMENDATIONS

We recommend the OWCP Acting Director:

   1. Develop a process for improper payment estimates that is compliant with IPERA.

   2. Develop a program performance measure on payment accuracy.

   3. Provide SSA death match reports to the District Offices in a timely manner and
      monitor those reports that show multiple payments made after claimants’ date of
      death to verify timely action was taken to terminate benefits.

   4. Develop effective procedures, including seeking legislative authority to conduct
      matches with SSA retirement records, to ensure that claimants who receive SSA
      retirement benefits are identified timely and their FECA benefits are adjusted
      accordingly.

   5. Implement a requirement for training on improper payments for all claims 

       examiners. 





                                                                    FECA Improper Payments
                                          14                      Report No. 03-12-001-04-431
                                           U.S. Department of Labor – Office of Inspector General




We appreciate the cooperation and courtesies that OWCP personnel extended to OIG
during this audit. OIG personnel who made major contributions to this report are listed in
Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                                      FECA Improper Payments
                                            15                      Report No. 03-12-001-04-431
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                        FECA Improper Payments
              16                      Report No. 03-12-001-04-431
               U.S. Department of Labor – Office of Inspector General




Appendices 





                                          FECA Improper Payments
                17                      Report No. 03-12-001-04-431
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                        FECA Improper Payments
              18                      Report No. 03-12-001-04-431
                                            U.S. Department of Labor – Office of Inspector General


                                                                                   Appendix A
Background

FECA is a workers’ compensation law covering more than 3 million federal and postal
employees. It authorizes medical benefits, income replacement, and certain supportive
services to employees with work-related injuries, or in the case of deaths, survivor
benefits to family members. FECA also provides for vocational rehabilitation of injured
employees to facilitate their return to work. DOL’s OWCP is charged with administering
the FECA program. Within OWCP, the Division of Federal Workers’ Compensation
adjudicates new claims for benefits and manages ongoing cases; pays medical
expenses and compensation benefits to injured workers and survivors; and helps
injured employees return to work when medically able to do so. Benefits are paid from
the FECA Special Benefits Fund, which is principally funded through chargebacks to the
federal agencies that employ the injured worker. Therefore, the FECA program affects
the budgets of all federal agencies.

For FY 2010, the FECA program paid more than $1.9 billion in wage-loss compensation
to claimants who were unable to work because of injuries incurred while performing
their work duties, and more than $900 million for medical costs related to work injuries.
According to the FY 2012 OWCP Budget justification, for FY 2010, there were
approximately 127,500 new injury cases and more than 19,000 initial claims for wage
loss compensation filed. Total beneficiaries paid in FY 2010 were 251,000. The
following table provides FECA benefits paid from FYs 2007 to 2010.

Table 4 – Compensation and Medical Benefits Paid From the FECA Special Benefit Fund
                      2007 2008 2009                                          2010
Compensation     $ 1,790,371,000    $ 1,842,130,000   $ 1,857,809,000     $ 1,930,115,000 

Medical          $ 753,157,000     $ 789,271,000      $ 859,100,000       $ 926,701,000 

Total            $ 2,543,528,000    $ 2,631,401,000   $ 2,716,909,000     $ 2,856,816,000

Since 2002, Congress enacted several laws to increase federal government efforts to
reduce improper payments. In July 2010, the President signed into law the IPERA, as
implemented by OMB Circular A-123. IPERA amended IPIA of 2002.

IPIA, (Public Law 107-300), enacted on November 26, 2002, required the heads of
federal agencies to annually review all programs and activities they administer, identify
those that may be susceptible to significant improper payments, estimate and report the
annual amount of improper payments in those programs and activities, along with the
corrective action plans developed and implemented to address the causes of improper
payments, and submit the information to Congress before March 31 of the following
year.

IPIA defines an improper payment as any payment that should not have been made or
that was made in an incorrect amount (including under and overpayments) under
statutory, contractual, administrative, or other legally applicable requirements. Improper
payments also include payments to an ineligible recipient, payments for an ineligible

                                                                       FECA Improper Payments
                                             19                      Report No. 03-12-001-04-431
                                         U.S. Department of Labor – Office of Inspector General


service, duplicate payments, payments for services not received, and payments that do
not account for credit for applicable discounts.

On November 20, 2009, the President issued Executive Order 13520 for the purpose of
reducing improper payments by intensifying efforts to eliminate payment error, waste,
fraud, and abuse in the major programs administered by the federal government. The
Executive Order intended to reduce improper payments by boosting transparency,
holding agencies accountable for reducing improper payments, and examining creative
incentives for states and other entities to reduce improper payments.

IPERA of 2010 (Public Law 111-204), enacted on July 22, 2010, amended IPIA of 2002.
It required the head of each federal agency to review agency programs and activities
during the year following enactment and subsequently every 3 fiscal years to identify
those that may be susceptible to significant improper payments. IPERA of 2010 defined
“significant” to mean improper payments in program or activity payments in the
preceding fiscal year that may have exceeded $100 million, or $10 million and 2.5
percent of program outlays (1.5 percent prior to FY 2013). IPERA also revised
requirements for estimating improper payments by directing agency heads to produce
statistically valid estimates of the improper payments in their agencies and to include
such estimates in their annual financial statements. IPERA expanded the reporting
requirements for describing the actions agencies took to reduce improper payments by
including a statement of whether the agency had sufficient resources with respect to
internal controls, human capital, and information systems and other infrastructure to
prevent improper payments. IPERA also required a statement of reduction targets
approved by OMB and coverage of specific criteria in agency reports on actions to
recover improper payments.

OMB Circular A-123, Appendix C, contained the implementing guidance for IPIA and
IPERA and required agencies to determine whether the risk of erroneous payments is
significant. OMB Circular A-123 defined significant erroneous payments as annual
erroneous payments in the program exceeding both 2.5 percent of program payments
and $10 million. However, OMB may determine certain programs that do not meet the
threshold requirements may still be subject to the annual reporting requirement. This
would most likely occur in programs with relatively high annual outlays. OMB
considered FECA one of a number of federal programs as being at a high risk of
improper payments because of the amount of outlays, and therefore required DOL to
report improper payment information on it. OMB required agencies to develop a
statistically valid estimate of improper payments for all programs identified as
susceptible to significant improper payments and prepare corrective action plans where
the estimate exceeds $10 million in annual improper payments. OMB also requires
agencies to report the improper payment results in their annual PAR.




                                                                    FECA Improper Payments
                                          20                      Report No. 03-12-001-04-431
                                                       U.S. Department of Labor – Office of Inspector General


OWCP reported the following improper payment results in its annual PAR for FYs 2005
to 2008:

Table 5 - DOL Reported FECA Estimated Improper Payments and Rates
   FY       Estimated Improper Payments   Improper Payment Rate (Percent)
  2005 $3,300,000                                      .13
  2006 	                       $ 722,000               .03 

  2007                        	$2,600,000              .10                                                             

  2008 	                       $ 500,000               .02 


In FY 2009, OMB granted DOL relief from reporting for FECA because it documented
two consecutive years of improper payments that were less than 10 million annually. 3
Barring any significant changes to legislation or funding, DOL will next be required to
report on FECA in FY 2012.

DOL reported in the PAR for FYs 2005 to 2008, that the causes of improper payments
consisted of the following:

    •	 Incorrect or incomplete information submitted for the claims record (such as pay
       rate, night differential rate, retirement plan, etc.);

    •	 OWCP errors including mistakes in judgment or interpretation in making 

       decisions; 


    •	 miscalculations in making payments; and

    •	 claimant fraud or misrepresentation.

In February 2008, GAO issued a report entitled Federal Workers' Compensation: Better
Data and Management Strategies Would Strengthen Efforts to Prevent and Address
Improper Payments. 4 The audit’s objective was to assess OWCP’s overall strategies for
preventing, detecting, and recovering improper payments.

GAO concluded that OWCP had not established an effective strategy for managing
improper payments in the FECA program. The agency did not sufficiently emphasize
preventing, detecting, and recovering improper payments. None of the performance
goals for the program addressed improper payments. Furthermore, OWCP did not
collect the information it needed to accurately assess the FECA program’s risk of
improper payments, such as information on their magnitude and causes. Without such

3
  OMB Circular A123, Appendix C Part I, Section K, provides that if any agency program has documented a minimum
of two consecutive years of improper payments that are less than $10 million annually, the agency may request relief
from the annual reporting requirements for this program.
4
  Better Data and Management Strategies Would Strengthen Efforts to Prevent and Address Improper Payments,
GAO-08-284, February 2008




                                                                                     FECA Improper Payments
                                                        21                         Report No. 03-12-001-04-431
                                          U.S. Department of Labor – Office of Inspector General


data, OWCP could not focus on the most vulnerable areas. Our concerns have been
included in our annual Management Challenges report for several years.

GAO recommended OWCP should revise its program performance measures to ensure
increased emphasis on payment accuracy, adequate internal controls, and
overpayment recoveries. Additionally, GAO recommended that OWCP collect more
detailed information on improper payments, such as the causes of under and
overpayments, and use these data to better identify improper payment risks and to
address areas of high risk. GAO also recommended that OWCP take steps to reduce
common causes of improper payments by requiring agencies to report to OWCP more
timely when a FECA claimant returns to work, ensuring that its data match with SSA’s
death records is conducted regularly and consistently, taking steps to ensure that wage-
loss compensation payments for claimants covered by the federal retirement system are
appropriately reduced by the amount of their SSA benefits attributable to their federal
service, seeking legal authority to enter into a data-matching agreement with the HHS to
identify FECA claimants who have wage earnings reported in the NDNH and
determining what additional training claims examiners may need to improve payment
accuracy.




                                                                     FECA Improper Payments
                                           22                      Report No. 03-12-001-04-431
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The audit objective was to answer the following question:

        Has OWCP effectively addressed known weaknesses in detecting and
        preventing improper payments in the FECA program?

Scope

For the purpose of our audit, we considered the weaknesses GAO reported in 2008 in
OWCP’s overall strategies for detecting and preventing improper payments for the
FECA program and OWCP’s corrective action addressing GAO’s recommendations.
Specifically, our audit covered OWCP’s methods for estimating and reporting improper
payments, and measuring payment accuracy. The audit also covered OWCP’s
processes for identifying and managing the causes of improper payments, such as the
use of the SSA death records for terminating benefits of deceased claimants, identifying
unreported income and SSA retirement benefits by claimants, and training claims
examiners on preventing improper payments. Our audit did not include OWCP’s efforts
to recover overpayments. We conducted the field work at OWCP’s National Office in
Washington, D.C. and at the District Office, in Philadelphia, Pa. The audit covered
OWCP’s internal controls in place and corrective actions taken in response to the GAO
report, as of June 2011.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

In planning and performing our audit, we considered whether internal controls significant
to the audit were properly designed and placed in operation. This included reviewing
OWCP’s policies and procedures related to identifying, estimating, reporting, and
managing improper payments. We confirmed our understanding of these controls and
procedures through interviews and case file review and analysis. We evaluated internal
controls used by OWCP to address the weaknesses identified in the 2008 GAO report.
Our consideration of OWCP’s internal controls related to improper payments would not
necessarily disclose all matters that might be significant deficiencies. Because of
inherent limitations in internal controls, misstatements or noncompliance may
nevertheless occur and not be detected.



                                                                     FECA Improper Payments
                                           23                      Report No. 03-12-001-04-431
                                          U.S. Department of Labor – Office of Inspector General


We reviewed the annual PARs for DOL, SSA, and DVA. We also analyzed the results of
OWCP’s Accountability Reviews for FY 2010. We interviewed OWCP staff on the
methods used for estimating improper payments and the status of the corrective action
to address the recommendations made by GAO in it February 2008 audit report.

To determine if OWCP consistently performed a cross match between FECA claimants
and SSA death records and timely terminated benefits for deceased claimants, we
interviewed OWCP National Office and Philadelphia District Office officials to
understand the matching process, and analyzed the results of data matches provided
by SSA to OWCP for CY 2010. We performed tests of the data matches’ authenticity by
matching the computer-based records to each source record in iFECS. The results of
matching these records confirmed that the data was accurate and valid and represented
data that could be used in testing for claimant overpayments. The data was consistent
in that there were results for all the months in 2010 for all the District Offices. We
determined the data to be sufficient and appropriate for the purpose of our audit, which
was to establish the population of cases where there was a match of the claimants’ SSN
to the SSA death files between January 1, and December 31, 2010.

Of the 815 FECA cases that appeared on SSA’s death match report, 303 received
multiple payments after the claimant’s date of death. We selected our sample based on
the risk in which an improper payment could have occurred because of untimely action
by OWCP to stop benefits after the date of death. High-risk cases were cases where
payments continued more than 60 days after the date of death; moderate risk were
cases where multiple payments were made 60 days or less after the date of death; and
low risk were cases where only one payment or no payments were made after the date
of death. We tested 100 percent of the 32 high-risk cases, and judgmentally selected 10
of the 303 moderate-risk cases and 10 of the 512 low-risk cases. We then reviewed
documents in the iFECS claimant case files.

To determine if OWCP developed and implemented improper payment reason codes
we gained an understanding of the codes developed, and reviewed OWCP’s summary
of its analysis of the codes. We also observed how the codes were implemented in
iFECS.

To determine the extent of claims examiner training we interviewed OWCP officials on
the status of its implementation and reviewed training modules contained on OWCP’s
intranet.

Criteria

The Federal Employee Compensation Act, as amended, Title 5 of the United States
Code, Chapter 81 – Compensation for Work Injuries

IPIA, Public Law 107-300, November 26, 2002

OMB Circular A-123, Appendix C, August 10, 2006


                                                                     FECA Improper Payments
                                           24                      Report No. 03-12-001-04-431
                                        U.S. Department of Labor – Office of Inspector General




Executive Order 13520, Reducing Improper Payments and Eliminating Waste in Federal
Programs, November 20, 2009

OMB Circular A-123, Appendix C, Part III, March 22, 2010

IPERA, Public Law 111–204, July 22, 2010

OWCP FECA Procedure Manual

Government Performance and Result Act of 1993

GAO Standards for Internal Control in the Federal Government, 1999




                                                                   FECA Improper Payments
                                         25                      Report No. 03-12-001-04-431
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                        FECA Improper Payments
              26                      Report No. 03-12-001-04-431
                                     U.S. Department of Labor – Office of Inspector General


                                                                            Appendix C
Acronyms and Abbreviations

DOL                   United States Department of Labor
DVA                   Department of Veterans Affairs
FECA                  Federal Employees’ Compensation Act
FERS                  Federal Employees Retirement System
FY                    Fiscal Year
GAO                   Government Accountability Office
GPRA                  Government Performance Results Act of 1993
HHS                   U.S. Department of Health and Human Services
iFECS                 Integrated Federal Employees’ Compensation System
IPERA                 Improper Payments Elimination and Recovery Act of 2010
IPIA                  Improper Payment Information Act
NDNH                  National Directory of New Hires
OASDI                 Old-Age, Survivors, and Disability Insurance
OIG                   Office of Inspector General
OLRFI                 Office of Labor Racketeering and Fraud Investigations
OMB                   Office of Management and Budget
OWCP                  Office of Workers’ Compensation Programs
PAR                   Accountability and Performance Reports
SSA                   Social Security Administration
SSN                   Social Security Numbers
Social Security       Social Security Act Retirement Benefits
STAR                  Systematic Technical Accuracy Review
UI                    Unemployment Insurance




                                                                FECA Improper Payments
                                      27                      Report No. 03-12-001-04-431
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                        FECA Improper Payments
              28                      Report No. 03-12-001-04-431
                                U.S. Department of Labor – Office of Inspector General


                                                                       Appendix D
OWCP Response to Draft Report




                                                           FECA Improper Payments
                                 29                      Report No. 03-12-001-04-431
U.S. Department of Labor – Office of Inspector General




                           FECA Improper Payments
 30                      Report No. 03-12-001-04-431
U.S. Department of Labor – Office of Inspector General




                           FECA Improper Payments
 31                      Report No. 03-12-001-04-431
U.S. Department of Labor – Office of Inspector General




                           FECA Improper Payments
 32                      Report No. 03-12-001-04-431
                                            U.S. Department of Labor – Office of Inspector General


                                                                                   Appendix E
Acknowledgements

Key contributors to this report were Michael Hill (Audit Director), Daniel Pompilii (Audit
Manager), Elisa Larosa, Eric Rann, Joseph Pomianek, and Ajit Buttar.




                                                                       FECA Improper Payments
                                             33                      Report No. 03-12-001-04-431
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online: http://www.oig.dol.gov/   hotlineform.htm
Email: hotline@ oig.dol.gov

Telephone:       1-800-347-3756
                 202-693-6999

Fax:             202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
Room            S-5506
         Washington, D.C. 20210
